           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ADMINISTRATIVE COSTS CLAIMED
   BY THE PENNSYLVANIA BUREAU OF
      DISABILITY DETERMINATION

     March 2009    A-15-09-19021




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      March 19, 2009                                                            Refer To:

To:        Laurie Watkins
           Regional Commissioner
            Philadelphia

From:      Inspector General

Subject:   Administrative Costs Claimed by the Pennsylvania Bureau of Disability Determination
           (A-15-09-19021)


           OBJECTIVE

           The objectives of our audit were to evaluate the Pennsylvania Bureau of Disability
           Determination (PA-BDD) internal controls over the accounting and reporting of
           administrative costs, determine whether costs claimed were allowable and properly
           allocated and funds were properly drawn, and conduct a limited assessment of the
           general security controls environment. Our audit included the administrative costs
           claimed by the PA-BDD during Federal Fiscal Years (FFY) 2006 and 2007.

           BACKGROUND

           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for
           the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State, or other responsible jurisdiction. Such determinations
           are required to be performed in accordance with Federal law and underlying
                       1
           regulations. In carrying out its obligation, each DDS is responsible for determining
           claimants’ disabilities and ensuring that adequate evidence is available to support its
           determinations. To assist in making proper disability determinations, each DDS is



           1
               42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Laurie Watkins


authorized to purchase medical examinations, X rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
                        2
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations 3 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 4 As of March 31, 2008, for
FFYs 2006 and 2007, the PA-BDD received authorized funding of $79,000,690 and
$84,705,462, respectively.

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the FFY, each DDS submits a State
Agency Report of Obligations for SSA Disability Programs (SSA-4513) to account for
program disbursements and unliquidated obligations. 5 The SSA-4513 reports
expenditures and unliquidated obligations for Personnel Service Costs, Medical Costs,
Indirect Costs, and All Other Nonpersonnel Costs.

The Pennsylvania Department of Labor and Industry (PA-L&I) is the PA-BDD’s parent
agency. The PA-L&I and the central office of the PA-BDD are located in Harrisburg,
Pennsylvania. The PA-BDD also has two branch offices: Wilkes-Barre and
Greensburg, Pennsylvania. The PA-L&I is responsible for the draw down of SSA funds
to pay expenses of the PA-BDD. Additionally, the PA-L&I calculates and draws down
funds for Indirect Costs to the PA-BDD based on a negotiated indirect cost rate.

RESULTS OF REVIEW

The PA-L&I and PA-BDD had adequate internal controls over accounting and reporting
of administrative costs. Our tests of the amounts PA-L&I reported on Forms SSA-4513
provided reasonable assurance PA-L&I had correctly reported the administrative costs
PA-BDD incurred for disability determination activities during our audit period (see
Appendices B and C for our Scope and Methodology and PA-BDD Reported Costs,
respectively). Our tests of PA-L&I’s claimed costs also showed the sampled
expenditures were allowable and properly allocated and funds were properly drawn.


2
    20 C.F.R. §§ 404.1624 and 416.1024.
3
    31 C.F.R. § 205.1 et seq.
4
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 United States Code §§ 3335, 6501 and 6503.
5
  SSA, Program Operations Manual System, DI 39506.200 B.4, provides that “[u]nliquidated obligations
represent obligations for which payment has not yet been made. Unpaid obligations are considered
unliquidated whether or not the goods or services have been received.”
Page 3 – Laurie Watkins


Also, during our assessment of the PA-BDD general security controls environment,
nothing came to our attention to suggest deficiencies in these controls.

CONCLUSION
Based on our examination, we concluded PA-L&I and PA-BDD complied with laws,
regulations, policies and procedures governing expenditures and obligations for SSA’s
disability program for FFYs 2006 and 2007. Also PA-L&I and PA-BDD had adequate
internal controls over accounting and reporting of administrative costs, costs claimed
were allowable and properly allocated, funds were properly drawn and the general
security controls environment was acceptable. Therefore, we are not making any
recommendations to SSA.

OTHER MATTERS

After our fieldwork we received information that the Pennsylvania’s Office of the Budget
issued the Commonwealth of Pennsylvania’s Single Audit Report (Single Audit) for the
State fiscal year ended June 30, 2007. This is a State-wide annual report that
documents Pennsylvania’s spending of federal funds. One of the findings identified in
the Single Audit affected the PA-L&I which, in turn, impacted the PA-BDD during our
audit period. The report disclosed that payments for unused leave to terminated or
retiring employees were improperly charged. Unused leave payments (annual and sick)
were charged directly to federal programs at the time of payment. Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local and
Indian Tribal Governments requires paid unused sick leave to be allocated as a general
administrative expense (i.e., an indirect cost) to all activities of the PA-L&I.

Specifically, the report questioned $6,047,601 in various federal programs with related
amounts of unused leave. Of this amount, the report questioned $1,546,376 related to
Social Security funding. The report recommends that management change their
methodology for charging unused leave payouts as a direct expense to federal
programs, and ensure that these costs are allocated or charged in accordance with
applicable federal regulations.

According to PA-L&I Comptroller’s Office, Federal Accounting group, corrective action
was taken to remove the unused leave costs from the Forms SSA-4513 during our
audit period. Therefore, SSA was not overcharged for these amounts. Although we
did not specifically confirm the information provided by the Comptroller’s Office, nothing
came to our attention during the course of our audit to indicate otherwise.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Pennsylvania Bureau of Disability Determination Reported Costs
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act        Social Security Act
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FFY        Federal Fiscal Year
IES        Integrated Enterprise System
OIG        Office of the Inspector General
PA-BDD     Pennsylvania Bureau of Disability Determination
PA-L&I     Pennsylvania Department of Labor and Industry
SSA        Social Security Administration
SSI        Supplemental Security Income
Treasury   Department of the Treasury
SSA-4513   State Agency Report of Obligations for SSA Disability
           Programs
                                                                       Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the Pennsylvania Bureau of
    Disability Determination (PA-BDD) and the draw down of SSA funds.

•   Interviewed staff and officials at the PA-BDD, its parent agency, the Pennsylvania
    Department of Labor and Industry (PA-L&I), SSA’s Philadelphia Regional Office and
    SSA Headquarters.

•   Evaluated and tested internal controls regarding accounting and financial activities.

•   Reconciled State accounting records to the administrative costs reported by the
    PA-BDD on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Federal Fiscal Years (FFY) 2006 and 2007.

•   Examined specific administrative expenditures (Personnel, Medical, and All Other
    Nonpersonnel costs) incurred and claimed by the PA-BDD for FFYs 2006 and 2007
    on the SSA-4513. We used statistical sampling to select expenditures to test for
    documentation of the medical services, personnel, and all other nonpersonnel costs.

•   Examined the process and analyzed indirect costs claimed by the PA-BDD for
    FFYs 2006 and 2007.

•   Compared the amount of SSA funds drawn to support PA-BDD operations to the
    cost records as reported on SSA-4513.

We determined the data provided by PA-BDD used in our audit were sufficiently reliable
to achieve our audit objectives. We assessed the reliability of the data by reconciling
them to the costs claimed on the SSA-4513. We also conducted detailed audit testing
on selected data in the electronic data files. We performed our audit at SSA
Headquarters in Baltimore, Maryland, and the PA-BDD and PA-L&I offices in
Harrisburg, Pennsylvania. Our general security controls review was completed in the
PA-BDD Wilkes-Barre office. We did not review the general security controls at the
Harrisburg PA-BDD since these controls had recently been reviewed by an SSA
contractor. We conducted fieldwork from September through December 2008.



                                            B-1
Our audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

METHODOLOGY
Our sampling methodology included the four general areas of costs reported on the
SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other Nonpersonnel
Costs. We obtained electronic records that supported the Personnel, Medical, and All
Other Nonpersonnel Costs for FFYs 2006 and 2007 for use in sampling. These records
were obtained from the Pennsylvania Integrated Enterprise System (IES) and used by
the PA-L&I to prepare the SSA-4513. For our indirect cost review, we applied the
approved Indirect Cost rate to the PA-BDD direct cost base. The result is the basis for
the cost distributed to the PA-BDD.

Personnel Costs

We randomly selected 1 pay period in the most recent year under review. We selected
a random sample of 50 regular employees. We tested PA-BDD payroll records to
ensure it correctly paid employees and adequately documented these payments.

For medical consultant costs, we randomly selected 50 cost records from the most
recent year. We verified that the medical consultants were paid in accordance with the
approved contracts.

Medical Costs

We sampled 100 items (50 items from each FFY) from the IES cost records using a
stratified random sample of medical costs based on the proportion of medical evidence
of record and consultative examination costs to total medical costs claimed.

Also, we conducted analytical work to ensure the PA-BDD rates did not exceed the
highest rate paid by Federal or other agencies in the State for the same or similar types
of service.

Indirect Costs

Indirect Costs are based on a negotiated indirect cost rate approved for each State
fiscal year. The rate was applied to a direct cost base for that period. We recalculated
the Indirect Costs to ascertain the amounts charged to PA-BDD were correct.
Additionally, we conducted a limited review the PA-L&I cost allocation plans that were
the basis for the approved rate.




                                           B-2
All Other Nonpersonnel Costs

We selected a stratified random sample of 100 items (50 items from each FFY) from
the All Other Nonpersonnel Costs category (except occupancy and PA-L&I direct labor
costs). Before selecting the sample items, we stratified the transactions in the 10 cost
categories. We then distributed the 50 sample items for each year between categories
based on the proportional distribution of the costs. We conducted a 100-percent review
of the PA-BDD occupancy costs for FFYs 2006 and 2007. For the PA-L&I direct labor
costs, which is an allocated payroll cost to the BDD, we recalculated rates and
conducted analysis to determine the reasonableness of the allocations to the PA-BDD.




                                          B-3
                                                                          Appendix C

Pennsylvania Bureau of Disability Determination
Reported Costs


                          Reported Costs on Form SSA-4513

                                   Federal Federal Year 2006
                                For the Period Ended 03/31/2008*
                                                   Unliquidated
       Cost Areas              Disbursements        Obligations         Total Obligations
Personnel                    $        47,815,700               $0   $             47,815,700
Medical Service              $        18,873,813               $0   $             18,873,813
Indirect                     $         1,760,617               $0   $              1,760,617
All Other Nonpersonnel $               7,901,277               $0   $              7,901,277
Total                        $        76,351,407               $0   $             76,351,407
           *Final report - close out




                                Federal Federal Year 2007
                             For the Period Ended 03/31/2008
                                                Unliquidated
       Cost Areas           Disbursements        Obligations            Total Obligations
Personnel                 $       48,524,641 $         106,707      $             48,631,348
Medical Service           $       18,966,381 $         166,387      $             19,132,768
Indirect                  $           35,014 $       2,628,293      $              2,663,307
All Other Nonpersonnel    $        9,753,944 $       4,410,010      $             14,163,954
Total                     $       77,279,980 $       7,311,397      $             84,591,377
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Mark Meehan, Acting Audit Manager, (410) 966-7147

Acknowledgments

In addition to those named above:

   Sig Wisowaty, Auditor-in-Charge
   Ronald Anderson, Senior Auditor
   Rick Wilson, Senior Auditor
   Florence Wolford, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-19021.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
